February 26, 2021
Via Electronic Filing
Hon. Scott S. Harris, Clerk of Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re: David Carson, et al. v. A. Pender Makin, No. 20-1088
Dear Mr. Harris:
I am counsel of record for petitioners in the above-captioned case. I am
writing to provide consent to the filing of any amicus curiae brief relating to
the petition for a writ of certiorari, in support of either party or neither party,
provided that the amicus curiae brief otherwise complies with the rules of this
Court.
Respectfully submitted,

/s/ Michael E. Bindas
Michael E. Bindas
Counsel for Petitioners

cc:

Sarah Forster, Esq.
Christopher Taub, Esq.
(via electronic mail and USPS First Class Mail)
Counsel for Respondent

